                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A-03110072
                                                                                   11          Page 1 of 2



           The PI' on an NSF proposal2claimed he neither wrote nor submitted the proposal to FastLane.
           He explained that he learned of the submission when it was declined via email from NSF. The
           PI stated that the institution submitted the proposal to NSF and used his Social Security Number
           (SSN) without his permission. He further suggested that some of the information in the proposal
           related to institutional statistics and participants' resumes was not entirely accurate.

           NSF's FastLane Branch chief3 verified that the institution used the PI's and co-PI'S SSN's in
           submitting the proposal. Further, he verified that the PI and co-PI received emails confirming the
           receipt of the NSF proposal on the same day it was submitted as well as emails informing them
           when the proposal had been declined. The use of SSN's as identifiers and the sending of receipts
           and declinations to PI's by email are normal and routine functions in the proposal review process.

           We learned from NSF's DGA that the institution had extremely limited experience with
           submisson of NSF proposals. In fact, the one prior NSF FastLane proposal submission by the
           institution required significant additional processing and changes by DGA when it was funded
           because of several procedural errors made by the institution during the submission process.

           Our review of information provided by the PI showed the proposal development by the
           institution was an open process and that the PI had been encouraged to participate and prepare
           some of the proposal materials, which he did. Prior to submission, the PI elected not to
           participate. Because of the educational nature of the NSF proposal, the institution was not
           precluded from listing the original PYco-PI, although it would have been better if the institution
           had selected new PYco-PIS.

           We determined that the alleged factual inaccuracies contained in the statisticsand the resumes in
           the proposal appeared to be the result of carelessness and inexperience on the part of the
           institution when it prepared the proposal package for submission. There does not appear to be
           any intent to mislead or misrepresent.

           We received the results of an independent investigation completed by a local police detective4
           into the alleged misuse of the PI's and co-PI'S SSN. The matter was declined for prosecution by
           the local District Attorney (DA). Given the DA's declination and the institution's inexperience




I'
 NSF OIG Form 2 (1 1/02)
                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM




with submitting proposals via Fastlane to NSF, there does not appear to be any intent to mislead
or misrepresent. We determined that this matter should be closed.

This case is closed and no further action will be taken.
